=>
I

OCKLE

2311 Douglas Street

. E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1 B a cfs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-843

NEW YORK STATE RIFLE & PISTOL ASSOCIATION,
INC., ROBERT NASH, BRANDON KOCH,
Petitioners,
v.

KEVIN P. BRUEN, in His Official Capacity as
Superintendent of the New York State Police,
RICHARD J. MCNALLY, JR., in His Official Capacity as
Justice of the New York Supreme Court, Third Judicial
District, and Licensing Officer for Rensselaer County,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF PROFESSORS
ROBERT LEIDER AND NELSON LUND, AND THE BUCKEYE FIREARMS ASSOCIATION
AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the above entitled case complies with
the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century

Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 7971 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of July, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

    

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
A. My Comm. Exp. Septembar 6, 2023

Lheor/ Ouduw-h, Chk

Affiant 35

 

Notary Public
